Ernst & Young LLP Final Report, “Information Technology Findings and
Recommendations” (IG-08-002, November 26, 2007)

On November 26, 2007, the Office of Inspector General (OIG) forwarded to NASA
management the Ernst & Young LLP (E&Y) report on information technology findings
and recommendations associated with NASA’s Integrated Enterprise Management
Program (IEMP). The report was undertaken in connection with E&Y’s audit of NASA’s
Fiscal Year 2007 Financial Statements (available over the Internet at
http://www.hq.nasa.gov/office/oig/hq/IG-08-001.pdf). Under the Chief Financial
Officers Act of 1990, NASA’s financial statements are to be audited in accordance with
generally accepted government auditing standards.

As part of the NASA consolidated financial statement audit, E&Y performed procedures
to assess the effectiveness of the information technology control environment (general and
application controls) and issued applicable findings and recommendations. The Director,
IEMP, concurred with E&Y’s recommendations, and management’s comments were
responsive. The recommendations will be closed upon completion and verification of
management’s corrective action.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
